IN THE SUPREME COURT OF THE UNITED STATES

BROWN, STEPHEN P.
Petitioner
vs.

No:

20-0071

USA
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

JEFFREY B. WALL
Acting Solicitor General
Counsel of Record
July 29, 2020
cc:
MARSHALL ARON MINTZ
MINTZ & OPPENHEIM, LLP
260 MADISON AVENUE
18TH FLOOR
NEW YORK, NY 10016
HARLAN PROTASS
PROTASS LAW PLLC
260 MADISON AVENUE
22ND FLOOR
NEW YORK, NY 10016

